. +~«v

2

No.

IN THE SUPREME COURT OF THE UNITED STATES
ISIDORO RODRIGUEZ,
Petitioner,
VS.
VIRGINIA STATE BAR DISCIPLINARY BOARD,

On Petition for A Writ of Certiorari to
the Supreme Court of the Commonwealth of Virginn '

PETITION FOR WRIT OF CERTIORARI

FILED
JUL 1 0 2020
suprCeEm?c^lergk

Isidoro Rodriguez
*Former Member of the SCOTUS Bar
2671 Avenir Place, Apt 2227
Vienna, Virginia 22180
Rodriguez and Rodriguez
World Trade Center
Calle 76 No. 54-11, Suite 313
Barranquilla, Colombia
Virginia Mobile: 1.571.477.5350
CO Mobile: 57.300.658.7220

*

1

QUESTIONS PRESENTED FOR REVIEW
I.

Whether the 1st, 5th, 7th, and 14th Amendments to the United States

Constitution (“U.S. Const.”), the Void Ab Initio Order Doctrine, and the integrity and
independence of the Commonwealth’s judicial system under Art. VI §§ 1, 5 & 7 of the
Constitution of the Commonwealth of Virginia (‘VA Const), and VA Code § 54.1-3915
& § 54.1-3935A (1950 to 2017), has been violated by the denial of the Writ of
Mandamus and Prohibition confirming the pattern and practice since 2006:
First, of the systemic denial of access to an impartial court so to not hold the
Virginia State Bar Disciplinary Board’s (‘VSBDB”) accountable for usurping
judicial authority and jurisdiction to disbar Petitioner Isidoro Rodriguez in
violation of the Void Ab Initio Order Doctrine?;
Second, of the systemic denial of access to a statutory jury trial under VA Code
§ 18.2-499 & 500 so to not hold the VSBDB accountable for participating,
cooperating and assisting the business conspiracy of Washington D.C.
Attorneys/Lobbyist Eric Holder et al. to injure Petitioner Isidoro Rodriguez
reputation and profession by the issuance of a void ab initio order?; and,
Third, of the systemic denial of access to a common-law jury trial so to not hold
the VSBDB et al. accountable for malfeasance for the void ab initio order, as
well as for lobbying to violate VA Const.’s amending procedures, to violate the
prohibition on ex post facto laws, and to violate the prohibition on enacting
special legislation granting the VSBDB immunity for a business conspiracy?

11

LIST OF ALL DIRECTLY RELATED PROCEEDINGS IN STATE AND FEDERAL
COURTS WHICH HAVE SYSTEMICALLY DENIED ACCESS TO AN IMPARTIAL
COURT TO RECIPROCALLY ENFORCE THE VSBDB VOID AD INITIO ORDER.
1.

Isidoro Rodriguez v. General Assembly of the Commonwealth of Virginia, et ah,
S. Ct. VA No. 190579 (September 2, 2019); Fairfax County Circuit Court Case
No. 2018-16227 (February 12, 2019).

2.

Isidoro Rodriguez, Esq., v. Jane/John Does of the Virginia State Bar
Disciplinary Board, et al., US Dist. Ct. ED VA 12-cv-663-JAB (April 12, 2013),
aff’d 4th Cir USCA No 13-1638 (Nov. 2013), cert, denied 2014.

3.

In the matter of Isidoro Rodrisuez. US Sup. Ct. Docket No. D-02466 (May 26,
2010), cert, denied.

4.

Isidoro and Irene Rodrisuez v. Commissioner of Internal Revenue, US Tax Court
Docket No. 10691-09, cert, denied; and, Isidoro Rodrisuez v. Commissioner of
Internal Revenue, US Tax Court Docket No. 11855-12, cert, denied 2014.

5.

Isidoro Rodrisuez v. Jack Harbeston, and Eric Holder et al., US Dist. Ct. WD
Wash. No. ll-cv-1601 (JCC).

6.

Irene Rodrisuez and Isidoro Rodriguez v. Douglas Shulman, et al., D.C. Cir. Ct.
No. ll-cv-1183(JEB).

7.

In re Isidoro Rodrisuez, U.S. Judicial Panel on Multidistrict Litigation, ML No.
2307 (December 14, 2011).

8.

Isidoro Rodrisuez v. US Tax Court. D.C. Cir. No. 10-1016, cert, denied, US Sup.
Ct. No. 10-1066 (Closed, March 21, 2011).

9.

Isidoro Rodrisuez v. Virginia Employment Commission, US Sup Ct. Docket No.
09-954 (Cert. Denied March 19, 2010), S. Ct. VA Record No. 092494, and the
Court of Appeals of Virginia, Record No. 0291-09-4.

10.

Isidoro Rodrisuez v. US Court of Appeals for the District of Columbia, (D.C. Cir.
No. 08-7134) cert, denied No. 09-237 (November 2, 2009).

11.

In the matter of Isidoro Rodrisuez, Esq., (4th Cir. No. 06-9518), cert, denied No.
08-942 (March 20, 2009), injunction denied (March 24, 2009).

12.

Isidoro Rodrisuez v. Standing Committee on Attorney Discipline, (3rd Cir. No 088037), cert, denied No. 08-1121 (Closed, May 18, 2009).

Ill

13.

Isidoro Rodriguez v. US Court of Appeals for the 2nd Circuit, (2nd Cir. No 0890089); cert, denied No. 08-942 (Closed, July 31, 2009).

14.

Isidoro Rodriquez. Esq. v. Editor-in-Chief, Lesal Times, et al., DC Dist. Ct. No
07-cv-0975 (PF), DC Ct App. N. 07-5334, injunction denied SC Ct. No. 07A601,
cert, denied US Sup Ct. 08-41 l(Closed, 2008).

15.

In re Isidoro Rodriguez, U.S. Dist. Ct. for the E. D. VA, Docket No. l:08-mc00022, May 28, 2008.

16.

Isidoro Rodrisuez v. Supreme Court of Virginia et al.. (S. Ct. No. 07-419,
November 2, 2007); and Isidoro Rodrisuez v. Supreme Court of Virginia, (Va.
Sup. Ct No. 07-0283), cert denied Nos. 07-A142 and 07A370 (2007).

17.

Isidoro Rodrisuez v. Devis and VA State Bar. VA Sup Ct. No. 06052, cert, denied
US Sup Ct. Nos. 06A619/06-875 (Closed, October 2006).

18.

Isidoro Rodrisuez v. Pereira. 163 F. Appx. 227 (4th Cir. 2006), cert, denied, 549
U.S. 954 (2006).

19.

Isidoro Rodriguez u. Guy Vander Jagt, etal., Sup. Ct. ofVa. No 040941/040942,
cert, denied, No. 04-867 (Feb. 28, 2005).

20.

Isidoro Rodrisuez v. HFPInc., et al., 77 F. Appx. 663 (4th Cir. 2003), cert, denied
541 U.S. 903 (2004).

21.

Isidoro Rodrisuez-Hazbun v. National Center for Missing & Exploited Children
et al, D.C. No. 03-120(RWR); D.C. Cir. No. 03-5092, cert, denied USSC No. 03301 (2006).

\

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW.

1

LIST OF ALL DIRECTLY RELATED PROCEEDINGS IN STATE AND FEDERAL
COURTS
11
TABLE OF CONTENTS

IV

TABLE OF CITED AUTHORITIES

v

CITATIONS TO OPINIONS BELOW,

1

STATEMENT OF JURISDICTION

1

STATEMENT REQUIRED BY S. CT. RULE 29.4

2

US CONSTITUTIONAL PROVISIONS INVOLVED

3

CONSTITUTION OF THE VIRGINIA INVOLVED

3

VA CODE PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

a.

When Federal Question Raised

4

b.

Material Facts

4

REASONS FOR GRANTING THE WRIT OF CERTIORARI

9

I. THE SYSTEMIC DENIAL OF ACCESS TO AN IMPARTIAL COURT.. . 9
A.

Violations of the 5th and 14th Amendment to US Const., and Void
Ab Initio Order Doctrine by the systemic denial of access to an
impartial court
9

B.

Systemic denial of the right to a jury trial of the evidence of
malfeasance,
16

II. VIOLATION OF ART. XII § 1 AND ART. 1 § 9 VA CONST. BY THE EX
POST FACTO AMENDMENT ADOPTING UNCONSTITUTIONAL
COURT RULES
18

?

V

III. VIOLATION OF ART. IV § 14, 13 (18) VA CONST. PROHIBITION ON
ENACTING SPECIAL LEGISLATION TO GRANT IMMUNITY... . 20
CONCLUSION

21
TABLE OF CITED AUTHORITIES

US Constitution:
Art. I, § 10, cl. 1 of the US Const

12, 20, 22, 23

Fifth Amendment ofU.S. Constitution
First Amendment U.S. Constitution

12, 24
19

Fourteenth Amendment U. S. Constitution

12, 24

Seventh Amendment U.S. Constitution

13, 23

Virginia Constitution:
Art. I § 5 VA Const

13, 14, 23

Art. I § 9 VA Const

8, 25

Art I § 11 VA Const

24

Art. VI §§ 1, 5, & 7 VA Const

24

Art. XII 1 VA Const
VA Const. Art. I Section 11

18-21
17

Federal Cases:
Calder v. Bull, 3 US ( 3 Dali.) 386 (1798)

23

California Motor Transp. Co. v. Trucking Unlimited, 404 US 508 (1972)

17

Christopher v. Harbury, 536 US 403 (2002)

22

Cooperativa Multiactiva de Empeados de Distribuidores de Drogas (Coopservir Ltda.)

t

VI

U. Newcomb, et al., D.C. Cir. No 99-5190, S Ct. No 99-1893 (2000)

5, 6, 13, 17, 19

Cohens v. Virginia, 19 US 264, 6 Wheat. 264, 404 (1821)

16

Collins v. Shepherd, 274 Va. 390, 402 (2007)

18

Commercial Business Systems v. BellSouth, 249 Va. 239 (1995)

21

Cummings v. Missouri, 71 US (4 Wall.) 277 (1806)

23

Daniels v. Thomas, 225 F.2d 795 (10th Cir. 1955), cert, denied, 350 U.S. 932 (1956)
19
District of Columbia Court of Appeals v. Feldman, 460 U. S. 462 (1983)

19

Ex parte Garland, 71 US (4 Wall.) 333 (1867)

23

Ex parte Garland, 71 US (4 Wall.) 333 (1867)

22

Fisher’s Case, 6 Leigh (33 Va.) 619 (1835)

14

Fletcher v. Peck, 6 Cranch 87 (1816)

22

In re Murchison, 349 US 133 (1955)

20

In Re Ruffalo, 390 US 544, 88 S.Ct. 1222, 20 L.Ed.2d 117 (1968)

23

Lopez u. First Union, 129 F3rd. 1186 (11th Cir. 1997)

5, 6, 13, 17, 22, 23

Marbury v. Madison, 1 Crunch 137 (1803)

5, 6, 13, 17, 19-21

Martinez v. Lamagno and DEA, 515 U.S. 417 (1995)

5, 6, 13, 20, 21

Organization JD Ltda. v. Assist U.S. Attorney Arthur P. Hui and DOJ, 2nd Cir. No. 936019 and 96-6145 (1996)
5
Federal Statutes:
28 U.S.C. 1257(a)

5

28 U.S.C. § 2403(b)

6

State Cases:

Vll

Barnes v. Am. Fertilizer Co., 144 Va. 692, 705 (1925)

18

Isidoro Rodriguez v. Devis and VA State Bar, VA Sup Ct. No. 06052, cert, denied US
Sup Ct. Nos. 06A619/06-875 (Closed, October 2006)
11
Isidoro Rodriguez v. General Assembly of the Commonwealth of Virginia, et al., S. Ct.
VA No. 190579 (September 2, 2019); Fairfax County Circuit Court Case No. 201816227 (February 12, 2019)
6, 12
Isidoro Rodriguez v. HFPInc., et al., 77 F. Appx. 663 (4th Cir. 2003), cert, denied 541
U.S. 903 (2004)
8
Isidoro Rodriguez u. Jack Harbeston, and Eric Holder et al., US Dist. Ct WD Wash. No.
ll-cv-1601 (JCC) (2011)
10
Isidoro Rodriguez v. Pereira, 163 F. Appx. 227 (4th Cir. 2006), cert, denied, 549 U.S.
954 (2006)
11
Isidoro Rodriguez v. Virginia State Bar Disciplinary Board, Supreme Court of Virginia,
No. 191136, March 2, 2020; Fairfax County Circuit Court, Case No. CL 2018-16433,
June 28, 2019
5, 7, 8, 11, 12
Isidoro Rodriguez, Esq. u. Editor-in-Chief, Legal Times, et al., DC Dist. Ct. No 07-cv0975 (PF), DC Ct App. N. 07-5334, injunction denied SC Ct No. 07A601, cert, denied
US Sup Ct 08-41 l(Closed, 2008)
10
Isidoro Rodriguez-Hazbun v. National Center for Missing & Exploited Children et al,
D.C. No. 03-120(RWR); D.C. Cir. No. 03-5092, cert, denied USSC No. 03-301 (2006)
9
Legal Club of Lynchburg v. A.H. Light, 137 VA 249, 430, 119 S.E. 55 (1923)

14

Marshal u. Jem Co, 446 US 238 (1980)

17

McCoy u. State Highway Department of South Carolina, 169 SE 174,169 SC 436 (1954
)23
Mississippi State Bar v. Young, 509 So. 2d 210 (Miss. 1987)

23

Missouri Pacific Ry. Co. u. Humes, 115 US 512 (1885)

20

Murray v. Giarratano, 492 US 1 (1989)

17

Vlll

Office of Disciplinary Counsel v. Campbell, 345 A.2d 616 (Pa. 1975)

23

Palko v. Connecticut, 302 US 319 (1937)

16

Pennsylvania v. Finley, 481 US 551 (1987)

17

Rook v. Rook, 233 Va. 92, 95, (1987)

18

Rooker v. Fidelity Trust Co., 263 U.S. 413 (1923)

19

Simler v. Conner, 372 US 221, 83 S.Ct. 609, 9 L.Ed2d 691 (1967)

20

Singh v. Mooney, 261 Va. 48, 51-52 (2001)

18

Skinner v. Switzer, 562 U.S. 521 (March 7, 2011)

19

The Case of the Marshalsea, 77 Eng. Rep. 1027 (KB 1613)
Walters v. National Ass’n of Radiation Survivors, 473 US 305 (1985)

16, 20
17

Grafton Partners LP v. Superior Court ofAlameda County, 36 Cal 4th 944,116 P.3d 479
(2005)
21
Virginia Code:
1932 Acts of Assembly p. 139
General Assembly 2019 HB 2111
VA Code § 18.2-499 & § 500 (2017)

15
12, 24
6, 8-10, 21, 24

VACode § 54.1 3915 (2050)

13, 15, 17, 18

VA Code § 54.1-3909 (1950)

13

VA Code § 54.1-3932 (1950)

8

VA Code § 54.1-3934 (1950)

*VA Code § 54.1-3935A (1950C2017)
VA Code § 8.01-223.2 (2019)

15
8, 16, 18, 19
6, 12

V

9

IX

Virginia S.Ct. Rules:
6, 25

Supreme Court of Virginia Court Rule Part 6, § IV, ^ 13
Miscellaneous Material:
Adam Smith, Of the Expense of Justice

20

David Oscar Williams, Jr., The Disciplining of Attorneys in Virginia 2 Wm. & Mary
Rev. Va. L. 3 (1954)
15
Legislative History to 1998 amendment to VA Code § 54.1-3935A (1998)
Void Ab Initio Order Doctrine

15

5, 6, 8, 13, 17

When Has the Supreme Court of Appeals Original Jurisdiction of Disbarment
Proceedings, R.H.C. Virginia Law Review, Vol. 10, No. 3 (Jan. 1924)
15

t

1
CITATIONS TO OPINIONS BELOW
The Supreme Court of Virginia’s (“S. Ct. VA”) unpublished void order refusing
the Petition for Appeal in Isidoro Rodriguez v. Virginia State Bar Disciplinary Board,
S. Ct. VA No. 191136, was issued on March 2, 2020 (App-l).i The Fairfax County
Circuit Court’s void unpublished prefiling injunction order (App-2) and void summary
dismissal order (App-4) in Isidoro Rodriquez v. Virginia State Bar Disciplinary Board,
Case No. CL 2018-16433, was issued on June 28, 2019.
STATEMENT OF JURISDICTION
The void unpublished order of the S. Ct. VA refusing the petition for appeal was
entered on March 2, 2020 (App-1). Federal jurisdiction is invoked:
First, pursuant to 28 U.S.C. 1257(a) to ensure that the Commonwealth of
Virginia’s (‘Virginia”) judicial system does provide access to an impartial court and
trial by jury to enforce the right to due process and equal protection of the laws under
the First, Fifth, Seventh and Fourteenth Amendment to the United States
Constitution, Art. IV §§ 1, 5, & 7 VA Const., and VA Code § 54.1-3915 (App-24) & §
54.1-3935A (1950 to 2017) (App-25), and the Void Ab Initio Order Doctrine [See
Marbury v. Madison, 1 Crunch 137, 140 (1803)]; and,
Second, pursuant to Article III U. S. Const, and 28 U.S.C. § 2403(b) under the
Court’s supervisory authority to stop the systemic denial of access to an impartial
Virginia and Federal court so to not hold the VSBDB for usurping of judicial power,

X(App-) references are to pages in the Appendix.

2
systemic denial of access to a trial by jury under VA Code § 18.2-499 & § 500, and
systemic denial of access to a common law trial of acts outside of legal authority and
scope of employment, see Christopher v. Harbury, 536 US 403, 412-418 (2002), See also
Gutierrez de Martinez v. Lamagno and PEA, 515 US 417, 115 S.Ct. 2227, 132 L. Ed.
2d 375 (1995)].
STATEMENT REQUIRED BY S. CT. RULE 29.4
The Court is informed that 28 U.S.C. §2403(b), does apply because of the
systemic denial of access to an impartial court to assist a business conspiracy in
violation of the First, Fifth, Seventh, and Fourteenth Amendments to the US Const,
the Void Ab Initio Order Doctrine, and VA Const. This was compounded by the VSBDB
lobbying: (a) for the retroactive adoption of the 1998 unconstitutional S. Ct. VA rule
Part 6, § IV, If 13 (“VA S. Ct. Rules”) establishing the VSBDB as a “kangaroo court”
and to appoint VSBDB members as “judges”; and, (b) after 2017 for special legislation
to grant the VSBDB immunity for participating in a business conspiracy.
The petition is served upon the Attorney General of the Virginia, as well as the
VSBDB, because neither the General Assembly of the Commonwealth of Virginia
(“General Assembly”) nor the S. Ct. VA has certified to the Attorney General that these
constitutional challenges were raised in the Writ of Mandamus and Prohibition, See
Isidoro Rodrisuez v. General Assembly of the Commonwealth of Virginia, et al., S. Ct.
VANo. 190579 (09/02/2019); Fairfax C. Cir. Ct. No. 2018-16227 (02/12/2019).
US CONSTITUTIONAL PROVISIONS INVOLVED
First Amendment to the United States Constitution.

3
Fifth Amendment to the United States Constitution.
Seventh Amendment to the United States Constitution.
Fourteenth Amendment to the United States Constitution.
CONSTITUTION OF THE VIRGINIA INVOLVED
Article I § 5 VA Const.
Article I § 9 VA Const.
Article IV § 1 VA Const.
Article IV § 14 If 3(18) VA Const.
Article VI § 1 VA Const.
Article VI § 5 VA Const
Article VI § 7 VA Const.
Article XII § 1 VA Const.
VA CODE PROVISIONS INVOLVED
VA Code § 8.01-223.2 (2017). Special legislation to grant immunity.
VA Code § 18.2-499.Business Conspiracy and jury trial.
VA Code § 18.2-500. Injunction authorized.
VA Code § 54.1-3909. Court Rules authorized.
VA Code § 54.1-3915. Restrictions as to rules and regulations.
VA Code 54.1-3932. Lien for fees.
VA Code § 54.1-3934. Revocation of license by Board.
VA Code § 54.1-3935 (1950-2017). Procedure for revocation of license before a court.
VA Code § 54.1-3935 (February 2017). Procedure for disciplining attorneys by three.

4
STATEMENT OF THE CASE
a.

When Federal Question Raised.
Petitioner Isidoro Rodriguez (“Rodriguez”) raised the federal questions in the

Writ of Mandamus and Prohibition and its amendment at page 1 thru 15, filed on
November 28, 2018, and on February 19, 2019 with the Fairfax Ct. Cir. Ct. They were
raised again in the Petition for Appeal to the S. Ct. VA on August 28, 2019, and during
oral argument on February 21, 2020.
The courts below never addressed the challenge to the systemic denial of access
to an impartial court, as well as the denial of the right to due process and equal
protection of the laws in violation of the Art. I § 5 and Art. VI §§ 1, 5, & 7 VA Const.,
and the Void Ab Initio Order Doctrine.
b.

Material Facts.
In 2003 Washington, D.C. Lobbyist/Attorney Eric Holder and Washington, D.C.

Lobbyist Jack Harbeston (“Holder et al. ’) violated VA Code §§ 18.2-499 & 500 (App-23)
by entering Virginia to “combine, associate, agree, and mutually” file two VSBDB bar
complaints to injure Rodriguez’s federal civil litigation practice, reputation, profession,
right to employment and statutory property rights.
The two bar complaints state they were filed:
First, for Rodriguez litigating to enforce a statutory Choate Virginia Attorney’s
Lien on treasure trove under VA Code § 54.1-3932 (1950) (App-10). See Isidoro
Rodriguez v. HFPInc., et al., 77 F. Appx. 663 (4th Cir. 2003), cert, denied 541 U.S. 903
(2004); Isidoro Rodriguez v. Guy Vander Jagt, et al., Sup. Ct. of Va. No 040941/040942,

¥

.

5
cert, denied, No. 04-867 (Feb. 28, 2005)2; and,
Second, for Rodriguez litigating to enforce the rights of a father under Hague
Convention on the Civil Aspects of International Child Abduction Oct. 1980, T.I.A.A.
No 11,670,191.L.M. 1501 (App-7 andApp-17) (“Treaty”), VACode, and Joint Custody
Agreement to protect his US citizen Son from being forced from Virginia in 2002 to a
“zone of war” in the Republic of Colombia (App-17), Isidoro Rodriguez-Hazbun v.
National Center for Missing & Exploited Children et al. D.C. No. 03-120(RWR); D.C.
Cir. No. 03-5092, cert, denied USSC No. 03-301 (2006).
At the outset, Rodriguez challenged the judicial authority and jurisdiction of the
VSBDB (See http://www.liamsdad.org/others/isidoro.shtml).
In response, in violation of VA Code §§ 18.2-499 & 500 (App-23) the VSBDB did
“combine, associate, agree, and mutually” participated in the business conspiracy by
issuing in 2006 a void ab initio order to injure Rodriguez for litigating to enforce his
statutory rights.
Subsequently, as part of the business conspiracy Rodriguez was disbarred from

2

In addition to the conflicting financial interest of the Washington D.C. Lobbyist/Law Firms Oligarchy’s,
Eric Holder was motivated by an animus to Rodriguez’s litigation challenging the U.S. Department of
Justice’s policy to grant immunity to government employees and attorneys for acts of malfeasance
outside the scope of legal authority and employment. Martinez v. Lamagno and PEA, 515 U.S. 417,115
S.Ct. 2227,132 L. Ed.2d375 (1995) (this Court reversed the 4th Circuit USC A and rejected DO J’s surreal
argument that a DEA agent was acting within his scope of employment while DWI and having sex), See
Cooperativa Multiactiva de Empeados de Distribuido-res de Drogas (Coopservir Ltda.) v. Newcomb, et
al., D.C. Cir. No 99-5190, S Ct. No 99-1893 (2000) (President Clinton’s Executive Order a prohibited bill
of attainder); See Organization JD Ltda. v. Assist U.S. Attorney Arthur P. Hui and DOJ, 2nd Cir. No. 936019 and 96-6145 (1996) (2nd Cir. Order held that a DOJ Assistant U.S. Attorneys can be held
accountable for violations of the Electronic Communications Privacy Act; and, Lopez v. First Union, 129
F3rd. 1186 (11th Cir. 1997) (11th Cir. held that DO J and financial institution can be held accountable for
violation of the Right to Financial Privacy Act).

6
federal practice from 2006 to 2010 by the summary reciprocal enforcement of the
VSBDB void ab initio order in violation of the Void Ab Initio Order Doctrine under
Marbury v. Madison, 1 Crunch 137, 140 (1803), by the Office of the Clerk the United
States Supreme Court, the U.S. Court of Appeals for the 2nd, 3rd, 4th, DC and Federal
Circuit, the U.S. Dist. Court for the ED VA, and U.S. Tax Court (page I, ii, iii). Also,
as part of the business conspiracy in 2006 Rodriguez was deprived of his property by:
(a) the Internal Revenue Service and U.S. Tax Court’s reciprocal enforcement of the
VSBDB void ab initio order to declare “frivolous” and then to strike Rodriguez's
litigation expenses-to thereby assess “taxes greater then allowed by law,” See Isidoro
and Irene Rodriguez v. Commissioner of Internal Revenue, US Tax Court Docket No.
10691-09, cert, denied; and, Isidoro Rodriquez v. Commissioner of Internal Revenue, US
Tax Court Docket No. 11855-12, cert, denied 2014; and, (b) by the Virginia Employment
Commission reciprocal enforcement of the VSBDB void ab initio order to deny
Rodriguez unemployment compensation benefits.
Based on this evidence of the systemic denial of access to an impartial court to
assist the business conspiracy and violation of th Void Ab Initio Order, Rodriguez filed
litigation under VA Code §§ 18.2-499 & 500 (App-23). Isidoro Rodriguez v. Jack
Harbeston, and Eric Holder et al., US Dist. Ct. WDWash. No. ll-cv-1601 (JCC) (2011).
See Isidoro Rodriquez, Esq, v. Editor-in-Chief, Legal Times, et al., DC Dist. Ct. No 07cv-0975 (PF), DC Ct App. N. 07-5334, injunction denied SC Ct. No. 07A601, cert, denied
US Sup Ct 08-41 l(Closed, 2008).
After the repeated summary dismissal’s refusing to stop the business conspiracy

a

7
and the reciprocal enforcement of the VSBDB void ab initio order, Rodriguez in 2012
file under VA Code §§ 18.2-499 & 500 (App-23), as well as under Bivens and RICO, see
Isidoro Rodriguez, Esq.,

v.

Jane/John Does of the Virginia State Bar Disciplinary

Board, et al. US Dist. Ct. ED VA 12-cv-663-JAB (April 12, 2013), aff’d 4th Cir USCA
No 13-1638 (Nov. 2013), cert, denied 2014. But there too, the Hon. Judge John A.
Gibney, Jr. did deny access to an impartial court: (1) by not disqualifying himself
because the Judge’s wife was a member of the Defendant VSBDB; (2) by granting
absolute immunity, by granting summary dismissal, and by granting a nationwide
Federal prefiling injunction of any future litigation for violation of the VA Const, VA
Code; and, (3) by holding a lack of jurisdiction in Virginia to enforce VA Code §§ 18.2499 & 500 (App-23)- despite the evidence that Holder et al. entered Virginia to file the
two fraudulent VSBDB bar complaints. See also Isidoro Rodriguez v. Devis and VA
State Bar. VA Sup Ct. No. 06052, cert, denied US Sup Ct. Nos. 06A619/06-875 (Closed,
October 2006); Isidoro Rodriguez v. Pereira. 163 F. Appx. 227 (4th Cir. 2006), cert.
denied, 549 U.S. 954 (2006).
Based on this evidence of the systemic denial of access to an impartial court,
Rodriguez did petition prior to the opening of the General Assembly each January from
2010 to 2019 (See http://t.co/slv7pz3zd5), for redress of the grievances for the VSBDB
violation of the Void Ab Initio Order Doctrine. After receiving no response to the
petitions for grievances, Rodriguez filed on May 15, 2016, a Complaint with the InterAmerican Commission on Human Rights, No. P-926-16/MC-367-16, for violation of the
right to due process and equal protection of the laws under Art. VI §§ 1, 5 & 7 VA

8
Const., and the Void Ab Initio Order Doctrine by the absolute grant of immunity to
government attorneys and judges. (See also January 2017 United Nations Complaint
(www.isidororodriguz.com).
In response, the VSBDB et al. used the cronyism and political influence in the
legal profession of Virginia to surreptitiously lobby the General Assembly after 2017:
(a) in violation of the prohibition on ex post facto laws, to enact a retroactive
amendment adopting the 1998 unconstitutional S. Ct. VA Court Rules Part 6, § IV, f 13
creating the VSBDB as a “kangaroo court” and permitting the S. Ct. VA to appoint
VSBDB members as judges (App-26); and,
(b) in violation of the prohibition under Art. IV § 14, f 3(18) VA Const. (See VA
Code § 8.01-223.2 (2017) (App-22) to enact special legislation granting the VSBDB
immunity for the business conspiracies (See VA Code § 8.01-223.2 (2017) (App-22) (see
also General Assembly 2019 HB 2111, introduced on January 5, 2019, four (4) days
after Rodriguez petitioned the Fairfax County members of the General Assembly).
Based this evidence Rodriguez filed the Complaint for a Writ of Mandamus and
Prohibition to compel the VSBDB to either explain under what it acts as a “court” or
to enjoin it usurping judicial authority (Isidoro Rodriguez v. Virginia State Bar
Disciplinary Board, Fairfax County Circuit Court, Case No. CL 2018-16433). See also
Isidoro Rodrisuez v. General Assembly of the Virsinia, et al., Fairfax County Circuit
Court, Case No. CL 2018-16227).
In written and oral responses the VSBDB in obfuscated and failed to cite any
authority under VA Const., or VA Code for their sitting as a “court” and acting as

.**

9
“judges.” But rather, the VSBDB obtusely assert in violation of the prohibitions under
Art. VI § 5 VA Const, and VA Code § 54.1-3915 (1950 to present), that the delegation
of rule making authority under VA Code § 54.1-3909 (1950) gave to the S. Ct. VA the
power to issue court rules giving the VSBDB judicial authority and jurisdiction to
create the VSBDB as a “court,” and to appoint VSBDB members as judges.
Furthermore, the VSBDB arrogantly defied the Void Ab Initio Order Doctrine by
arguing that Rodriguez lacked standing to challenge the VSBDB 2006 Void Ad Initio
Order.
Without addressing this evidence of the systemic denial of access to an impartial
court to violate the U.S. and VA Const., as well as VA Code, the Fairfax County Circuit
Court issued a summary prefiling injunction order (App-2) and a summary dismissal
order of the Writ of Mandamus and Prohibition (App-4) on June 28, 2019. The Petition
for Appeal was refused by the S. Ct. VA on March 2, 2020 (App-1).
REASONS FOR GRANTING THE WRIT OF CERTIORARI
There has been repeated violation of the First, Fifth, Seventh and Fourteenth
Amendment to the United States Constitution, the VA Const., VA Code, and the Void
Ab Initio Order Doctrine, by Fairfax County Circuit Court’s systemic denial of access
to an impartial court and trial by a jury: (1) so to not hold the VSBDB accountable for
a void ab initio order usurping judicial power to assist Holder et al’s business
conspiracy; (2) to not enjoin an ex post facto amendment (App-26); and, to not enjoin
special legislation granting immunity (App-22).
I. THE SYSTEMIC DENIAL OF ACCESS TO AN IMPARTIAL COURT.

10
A.

Violations of the
and 14th Amendment to US Const., and VoidAb Initio Order
Doctrine by the systemic denial of access to an impartial court.
The Complaint for a Writ of Mandamus and Prohibition Court is founded upon

records (page I, ii, and iii) evidencing the violation of the VoidAb Initio Order Doctrine
by the systemic denial of access to an impartial court, the systemic denial to a
statutory, and the systemic denial to a common law jury trial, so to not hold the
VSBDB accountable for usurping of jurisdiction and judicial authority by the issuance
in 2006 of the VSBDB VoidAb Initio Order (App- 6) to further Holder et al.’s business
conspiracy.
This evidence of the willful violation of the limitations and prohibitions under
Art. VI §§ 1, 5 & 7 VA., and VA Code VA Code § 54.1-3935A (1950-2017), is confirmed
by the VSBDB argument that under VA Code § 54.1-3909 (1950) delegation of rule
making authority the S. Ct. VA had the power to issue rules establishing the VSBDB
as a “court” and for the S. Ct VA to appoint VSBDB members as judges with
jurisdiction to discipline an attorney.
Furthermore, VSBDB argument confirms the willful violation of the controlling
1923 precedent under Legal Club of Lynchburg v. A.H. Light. 137 VA 249, 430, 119
S.E. 55 (1923), citing Fisher’s Case, 6 Leigh (33 Va.) 619 (1835), that the power to
either suspend or revoke an attorney’s license in all of Virginia, must be “conferred
by statute.” although in a proper case a court does have inherent judicial power to
suspend or annul the license of an attorney practicing only in that particular court.
To repeat, for a court to have,

L

11
“[t]he power to go further and make suspension or revocation of license
effective in all other court of the Commonwealth [this] must be
conferred by statute.” (Emphases added)
Based on this holding the 1932 Acts of Assembly p. 139 (codified at VA Code §
54.1-3935A (1950-2017)), was enacted to assist the judicial branch by establishing a
decentralized attorney disciplinary system to give by statute the exclusive judicial
authority and jurisdiction to discipline attorneys to the ninety-five (95) County Circuit
Court and eleven (11) Court of Appeals (App-25).3 Furthermore, under Art. VI § 5 VA
Const. (App-21), and VA Code § 54.1 3915 (2050) (App-24) the S. Ct. VA was
specifically prohibited from promulgating any court rules inconsistent with this
decentralized attorney disciplinary system.4
Under VA Code § 54.1-3935C (1950-2017) the Virginia State Bar and by
extension the VSBDB, was established only as, “an administrative agency of the [S. Ct.
VA] for the purpose of investigating and reporting [to the Circuit Court] violations of
rules and regulations adopted by the court under this article.”
Therefore, the evidence confirms that no statute was ever enacted prior
to the 2017 ex post facto legislation that amended VA Code § 54.1-3935 (19502017) to retroactively adopt the unconstitutional S. Ct. Va rules creating the
3

See When Has the Supreme Court of Appeals Original Jurisdiction of Disbarment Proceedings? R.H.C.
Virginia Law Review. Vol. 10, No. 3 (Jan. 1924), pp. 246-248;See When Has the Supreme Court ofAppeals •
Original Jurisdiction of Disbarment Proceedings, R.H.C. Virginia Law Review, Vol. 10, No. 3 (Jan. 1924),
pp. 246-248; and David Oscar Williams, Jr., The Disciplining ofAttorneys in Virginia 2 Wm. & Mary Rev.
Va. L. 3 (1954).
4Under VA Code § 54.1-3934 (1950), only the Board of Bar Examiners were given centralized power to
revoke an attorney’s license. See Legislative History to 1998 amendment to VA Code § 54.1-3935A
(1998), wherein the General Assembly specifically rejected delegating any expanded rule making power
to the S. Ct. VA.

■<L

12
VSBDB and vesting it with judicial power and jurisdiction as a “court”.
Consequently, benchmark of this and all the past litigation (pages I, ii, and iii)
has been to enforce the Void Ab Initio Order Doctrine under English common law,5
incorporated as a cornerstone of United States jurisprudence by Chief Justice John
Marshall in Marbury v. Madison, 1 Crunch 137, 140 (1803), holding that,
“[cjourts are constituted by constitutional authority and they cannot act beyond
the power delegated to them, if they act beyond that authority, and
certainly in contravention of it, their judgments and orders are
regarded as nullities, they are not just voidable, but simply void, and
this even prior to reversal.” (Emphasis added)
This Court reconfirmed the Void Order Doctrine by holding that due process
mandated that State court must assure the right of access to an impartial judicial
branch based on the constitutional obligation on the courts to decide matters presented
by litigants, because:
“With whatever doubts, with whatever difficulties, a case may be attended, we
must decide it, if it be brought before us. We have no more right to decline the
exercise of jurisdiction, which is given, than to usurp that which is not given.
The one or the other would be treason to the Constitution” Cohens v. Virginia,
19 US 264, 6 Wheat. 264, 404 (1821).
Regarding the mandate under the 5th and 14th Amendments, this Court held in
Palko v. Connecticut, 302 US 319, 325, 326 (1937), that the right to due process
includes those fundamental liberties that are “implicit” in the concept of ordered
liberty, such that “neither liberty nor justice would exist if [they] were sacrificed.” To

5

In The Case of the Marshalsea, 77 Eng. Rep. 1027 (KB 1613), the court held that under the common law,
“when the court has not jurisdiction of the cause, there the whole proceeding is [before a person who is
not a judge and is void], and actions will lie against them without any regard of the precept or process
. . Id. 77 Eng. Rep. at 1038-41.

13
this end, “[t]he Due Process Clause entitles a person to an impartial and disinterested
State tribunal in both civil and criminal cases.” Marshal v. Jem Co, 446 US 238, 242
(1980). Therefore to assure that nether a judge nor court are permitted to act outside
of their jurisdiction and judicial authority the Void Ab Initio Order Doctrine is
incorporation into 5th & 14th Amendments guarantee due process by confirming that
any State proceedings that is outside of constitutional or statutory judicial authority
or jurisdiction is void ab initio and actionable.
The Court recognized that there is a requirement on both State and Federal
court to have access to an impartial court to assure effective vindication of a separate
and distinct right to seek judicial relief: (a) for violation of the First Amendment’s
Right to Petition Clause, California Motor Transp. Co. v. Trucking. Unlimited, 404 US
508, 513 (1972); (b) for violation of the Fifth Amendment’s Due Process Clause,
Murray v. Giarratano. 492 US 1, 11 n.6 (1989) (plurality opinion); Walters v. National
Ass’n of Radiation Survivors, 473 US 305, 335 (1985); and, for violation of the
Fourteenth Amendment Equal Protection Clause, Pennsylvania v. Finley, 481 US 551,
557 (1987).
In accordance with this Court’s holding in Christopher v. Harbury, 536 US 403,
412-418 (2002), that to assert a claim of denial of access to an impartial court the claim
must be first made in an underlying cause of action, the Complaint for a Writ of
Mandamus and Prohibition was filed in the Fairfax County Circuit Court against the
VSBDB: (a) to obtain judicial review of the VSBDB usurping judicial power and
jurisdiction in violation of Art. VI §§ 1, 5, & 7 VA Const., and VA Code § 54.1-3915 &

■L

14
§ 54.1-3935A (1950-2017), to assist Holder et al.’s business conspiracy by issuance of
a Void Ab Initio Order, b. to obtain judicial review of the violation of the amending
procedure under Art. XII § 1 VA Const.; c. to obtain judicial review of the violation of
the mandate of separation of power between the General Assembly, and the S. Ct. VA
and the Executive Branch by the ex post facto amendment to retroactively expand the
power of the S. Ct VA. by adopting of the 1998 unconstitutional court rules creating the
VSBDB and appointing VSBDB members as judges; and, d. to obtain judicial review
of the violation of the prohibition on enacting special legislation to grant immunity to
the VSBDB as a private association.
This mandate assuring access to an impartial State court is an integral part of
due process restriction on the Judicial Branch. As Patrick Henry observed in 1777,
Power is the great evil with which we are contending. We have divided power
between three branches of government and erected checks and balances to
prevent abuse of power. However, where is the check on the power of the
judiciary? If we fail to check the power of the judiciary, I predict that we
will eventually live under judicial tyranny. (Emphasis added).
Consequently, the right to due process, and the right to equal protection of the
laws mandate that when an individual or entity has neither constitutional authority,
nor statutory authority, nor inherent legal power, nor jurisdiction to render any order,
said order is void ab initio, and is a complete nullity from its issuance and may be
impeached directly or collaterally by all persons, at any time, or in any manner and
cannot be reciprocally enforced by any governmental entity or court by either stare
decisis or res judicata. Collins v. Shepherd, 274 Va. 390, 402 (2007); Sineh v. Mooney,
261 Va. 48, 51-52 (2001); Barnes v. Am. Fertilizer Co., 144 Va. 692, 705 (1925); Rook

15
v. Rook. 233 Va. 92, 95, (1987).

Therefore, because the VSBDB has neither

constitutional authority, nor statutory authority, nor inherent legal power, nor
jurisdiction to render any valid order disbarring Rodriguez for litigating to enforce his
statutory rights (App-9), the VSBDB 2006 void ab initio order is a complete nullity
from its issuance it may be impeached directly or collaterally at any time or in any
manner.
In that context, the systemic denial of access to an impartial Virginia and
Federal court (page I, ii, iii),6 is a violation of the Fifth and the Fourteenth
Amendments to the U.S. Const., and the Void Ab Initio Order Doctrine. The VSBDB
void ab initio order as a “kangaroo court” was repeatedly reciprocal enforced by the
abuse of the judicially created abstention doctrines of res judicata and stare decisis in
violation of the Void Ab Initio Order Doctrine. See Daniels v. Thomas, 225 F.2d 795,
797 (10th Cir. 1955), cert, denied, 350 U.S. 932 (1956); See also Rooker v. Fidelity Trust
Co., 263 U.S. 413, 415-16 (1923); District of Columbia Court ofAppeals v. Feldman, 460
U. S. 462, 486-487 (1983); and, Skinner v. Switzer, 562 U.S. 521 (March 7, 2011).
The VSBDB has willfully defied the 5th and 14th Amend., and the prohibitions
under the VA Const., and VA Code, to assist Holder et al.’s business conspiracy, which
was compounded by unlawful acts by government attorneys in the executive, legislative
and judicial branches. This must be rejected by the Court for as prophetically observed
by Adam Smith,
6Disbarment of Rodriguez from federal practice by the Office of the Clerk the United States Supreme
Court, the Court of Appeals for the 2nd, 3td, 4th, DC and Federal Circuit, the US Dist. Court for the ED
VA and the US Tax Court reciprocal enforcement of the VSBDB void ab initio order (page I, ii, and iii).

9

*

16
“[w]hen the judicial is united to the executive power, it is scarce possible that
justice should not frequently be sacrificed to what is vulgarly called politics. The
persons entrusted with the great interests of the state may even without any
corrupt views, sometimes imagine it necessary to sacrifice to those interests the
rights of a private man. But upon the impartial administration of justice
depends the liberty of every individual, the sense which he has of his own
security.” The Wealth of Nations, Book V, Ch. I., Of the Expense of Justice, pp
200.
B.

Systemic denial of the right to a jury trial of the evidence of malfeasance.
The Fourteenth Amendment, mandates, “the duty of every State to provide, in

the administration of justice, for the redress of private wrongs.” Missouri Pacific Ry.
Co. v. Humes, 115 US 512, 521 (1885). To this end both the Seventh Amendment and
Art. I § 11 VA Const, guarantee the right to a common-law trial for malfeasance.
As early as The Case of the Marshalsea, 77 Eng. Rep. 1027 (KB 1613), it was
determined that the jury trial was one of the most important safeguards against
arbitrary and oppressive governmental policies. In this context, Thomas Jefferson
observed in a letter to Thomas Paine in 1789, that, “I consider trial by jury as the only
anchor ever yet imagined by men, by which the government can be held to the
principles of its Constitution.”
Later, In re Murchison. 349 US 133, 136 (1955) (Black, J.), the Court held,
“[0]ur system of law has always endeavored to prevent even the probability of
unfairness. To this end no man can be a judge in his own case and no man is
permitted to try cases where he has an interest in the outcome.
This Court has confirmed that all doubts should be resolved in favor of jury
trials considering the strong federal policy favoring such trials and right under the
Constitution. Simler v. Conner. 372 US 221, 83 S.Ct. 609, 9 L.Ed2d 691 (1967). See

J

k

■»

17
also, Grafton Partners LP v. Superior Court of Alameda County, 36 Cal 4th 944, 116
P.3d 479 (2005) (court finding a violation of the right to a jury trial under California
Constitution-similar to VA Const. Art. I Section 11).
This common law right to a trial by a jury of the evidence of wrongdoing by acts
outside the scope of authority was also confirmed in the 1995 case argued and won by
Rodriguez against Eric Holder et al,’s policy of granting absolute impunity to
government employees and judges for acts for outside of legal authority. Gutierrez de
Martinez v. Lamas.no and PEA, 515 US 417, 115 S.Ct. 2227, 132 L.Ed. 2d 375 (1995)
(4th Cir USCA reversed and remanded for an evidentiary hearing before a jury to
determine if the government employee acts DUI while having sex were within or
outside the scope of employment).
Th common law right to a trial by jury is augmented by the statutory right to a
jury trial for a business conspiracy under VA Code §§ 499 & 500. The existence of a
business conspiracy is a jury question of facts-not for the court. As explained in
Commercial Business Systems v. BellSouth, 249 Va. 239 at 267-68 (1995),
statutory conspiracy claim is a matter for determination by a jury.
whether a conspiracy caused the alleged damaged ordinarily is a question for a
jury. Ordinarily it is the function of a jury to determine whether and to what
extent a plaintiff has been damaged. (Emphasis added)
The record below confirms the systemic denial of access to a trial by jury by the
summary denial of motions filed under 7th Amendment U.S. Const., Art I § 11 VA
Const., VA Code §§ 18.2-499 & 500 and the common law, Rodriguez has been denied
of his right due process and equal protection of the laws. Therefore, this Court must

i

I-

t

18
exercise its supervisory authority to assure access to an impartial jury trial to enforce
the prohibitions and limitations under both VA Const., and VA Code. As observed by
Attorney General John Ashcroft,
“it is in the federal government's interest to have effective and fair state
courts, lest litigants turn to federal courts to resolve matters properly
within state court responsibilities." November 2, 2003, Department of
Justice Evaluation of the State Judicial Institutes's Effectiveness to the House
and Senate Judiciary Committees. (Emphasis added)
II. VIOLATION OF ART. XII § 1 AND ART. 1 § 9 VA CONST. BY THE EX POST
FACTO AMENDMENT ADOPTING UNCONSTITUTIONAL COURT RULES.
A. Denial of the 1st Amend Right to Petition for Grievances
Under Art. XII § 1 VA Const, only the Citizens of Virginia can amend the Art.
VI §§ 1, 5 & 7 VA Const., to expand the power of the S. Ct VA. to permit the S. Ct. VA
to create the VSBDB as a court and to appoint VSBDB as judges.
This legislative power granted by the Citizens to the General Assembly can
neither be delegated nor modified without the Citizens ratifying an amendment to the
VA Const.
Also, under Art. I, § 10, cl. 1 of the US Const, and Art. 1 § 9 VA Const., the
VSBDB is prohibited from lobbying the General Assembly to enact an ex post facto law
in 2017 to adopt the 1998 court rules to have retroactive effect.
In Fletcher v. Peck. 6 Cranch 87,138 (1816), Chief Justice John Marshall defined
an ex post facto law, as “one which renders an act punishable in a manner in which it
was not punishable when it was committed.” Therefore, an ex post facto law has an
impact on past transactions. See Ex parte Garland, 71 US (4 Wall.) 333, 377 (1867); See

*

k »

19
also McCoy u. State Highway Department of South Carolina, 169 SE 174, 169 SC 436
(1954).
In Calder v. Bull, 3 US (3 Dali.) 386, 390, 397 (1798), this court determined that
the ex post facto clause only prohibited the passage of criminal or penal measures that
had a retroactive effect. But, too this court held that attorney discipline proceedings
are quasi-criminal in nature and subject to the prohibition under the ex post facto
clause, Ex parte Garland, 71 US (4 Wall.) 333, 381 (1867) (companion case to Ex parte
Garland, supra.).
In both decisions, the court confirmed that an attorney has certain procedural
and substantive rights to ensure due process and equal protection of the laws.
Cummings v. Missouri, 71 US (4 Wall.) 277 (1806); In Re Ruffalo, 390 US 544, 550-51,
88 S.Ct. 1222, 1226, 20 L.Ed.2d 117,121-23 (1968); see also Mississippi State Bar v.
Young, 509 So. 2d 210, 212 (Miss. 1987); Office of Disciplinary Counsel v. Campbell,
345 A.2d 616, 620 (Pa. 1975). This right to due process is mandated because attorney
discipline proceedings are highly penal character.
However, in violation of the above VA Const, restrictions, and Rodriguez’s right
under the First Amendment and Art. I VA Const, to petition for grievances (See
http://t.co/slv7pz3zd5): first, the VSBDB lobbied for the enacting in 2017 of the ex post
facto amendment of VA Code § 54.1-3935A (1950 to 2017) (App-25) to retroactively
adopt in violation of Art. VI §§ 1, 5, & 7 VA Const., Art. 1 § 9 VA Const., and Art. XII
§ 1 of the VA Const, the 1998 unconstitutional court rules establishing the VSBDB as
a “court” and to appoint VSBDB members as judges (VACode § 54.1-3935 (2017)) (App-

20
26), and, second, the VSBDB lobbied for the enacting in 2017/2019 in violation of Act.
IV § 14, &3(18) VA Const, special legislation aimed to grant immunity to the VSBDB
as a private association VA Code § 8.01-223.2 (2017) and 2019 HB 2111.
Thus the Amended Complaint for Writ of Mandamus and Prohibition was
properly filed based this evidence that VA Code § 54.1-3935 (2017) was enacted to
conceal the ongoing violations of VA Const and VA Code by retroactively
“[clonformlingl the statutory procedure for the disciplining of attorneys” (App- 28) to
the unconstitutional 1998 Rule Part 6, § IV, 13-6 establishing the VSBDB as a
“kangaroo court” and to permit the S. Ct. VA to appoint VSBDB as “judge” with
jurisdiction and judicial authority to discipline an attorney.
Under Art. XII § 1 VA Const., the General Assembly was and is without power
to circumvent the limitations and prohibitions under Art. VI §§ 1, 5 & 7 VA Const.
The 2017 ex post facto amendment is highly penal since it obfuscates and seeks
to deprives Rodriguez of his right of action challenging the business conspiracy and the
violation of Art. VI §§ 1, 5, & 7 VA Const, and the Void Ab Initio Order Doctrine.
III. VIOLATION OF ART. IV § 14,13 (18) VA CONST. PROHIBITION ON
ENACTING SPECIAL LEGISLATION TO GRANT IMMUNITY.
Under Art. IV, § 141 3 (18) VA Const., the General Assembly is prohibited from
enacting any special, or private law, “[g]ranting to any private corporation, association,
or individual any special or exclusive . . . immunity”.
The VSBDB is not a court, nor a state agency nor a corporation. It is an
administrative agency of the S. Ct. VA within the unincorporated professional

21
organization of the Virginia State Bar. Neither governmental or judicial immunity
applies to them, thus they are not clothed with immunity.
Therefore, therefore courts below have denied access to an impartial court by not
holding the VSBDB accountable for lobbying for the special legislation [VA Code § 8,01223.2 (2017) (App-22) and General Assembly 2019 HB 2111], granting immunity for
the business conspiracy.
CONCLUSION
The evidence confirm the denial of the Complaint for a Writ of Mandamus and
Prohibition as an integral part of the systemic denial of access to an impartial court:
(a) to not hold the VSBDB accountable for the void ab initio order to assist
Holder et al. s business conspiracy;
(b) to not hold the VSBDB accountable for lobbying to violate the amending
procedure under Art. XII §1 VA Const.;
( c) to not hold the VSBDB accountable for lobbying to violate the prohibition
of ex post facto law under Art. I, 10, cl. 1 U.S. Const., and Art. I § 9 VA Const.;
(d) to not hold the VSBDB accountable for lobbying to violate the separation
of power under Art. I § 5 and Art. VI §§ 1, 5, & 7 VA Const., to retroactively
“conform the statutory procedure [under VA Code § 54.1 3935 (1932-2009)]
for the disciplining of attorneys” to the 1998 unconstitutional VA S. Ct. Rules
Part 6, § IV, | 13; and,
(e) to not hold the VSBDB accountable for lobbying for special legislation to
not be held accountable for assisting and furthering the business conspiracy in

&
*: ^

*

22

violation of VA Code §§ 18.2-499 & 500 by Washington D.C. Lobbyist/Attorney Eric
Holder et al..
For the above reasons, the petition must be granted.

Isidoro Rodrig
Former Member of the Bar
2671 Avenir Place, Apt 2227
Vienna, Virginia 22180
Telephone: 571.477.5350

